OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/NIGERIA’S 

MALARIA INTERVENTIONS 

AUDIT REPORT NO. 7-620-10-008-P
July 7, 2010




DAKAR, SENEGAL

Office of Inspector General



July 7, 2010

MEMORANDUM

TO:                 USAID/Nigeria Director, Ray Kirkland

FROM:               Regional Inspector General, Gerard Custer /s/

SUBJECT:            Audit of USAID/Nigeria’s Malaria Interventions (Report No. 7-620-10-008-P)


This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in appendix II.

The report includes six recommendations for your action. Based on actions taken by the
mission and supporting documentation provided, final action has been taken on
recommendation 1 and management decisions have been reached on recommendations 2, 3,
4, 5, and 6. Please provide the Audit Performance, and Compliance Division in the USAID
Office of the Chief Financial Officer (M/CFO/APC) with the necessary documentation to achieve
final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 
  X




Audit Findings ................................................................................................................. 4 


  Bed Nets Were Stolen and 

  Unaccounted For ............................................................................................................ 4 


  All ACTs Need To Be Distributed .................................................................................. 5 


  Reported Results Were Not Supported .......................................................................... 6 


  Performance Management 

  Needs To Be Strengthened ........................................................................................... 8 


Evaluation of Management Comments ....................................................................... 10 


Appendix I—Scope and Methodology......................................................................... 11 


Appendix II—Management Comments........................................................................ 13 

SUMMARY OF RESULTS

Malaria is endemic throughout Nigeria. It currently accounts for nearly 110 million
clinically diagnosed cases per year, 60 percent of outpatient visits, and 30 percent of
hospitalizations. It is also believed to be responsible for up to 11 percent of maternal
mortality, 25 percent of infant mortality, and 30 percent of under-5 mortality. Aside from
malaria’s direct effect on health, the disease places severe social and economic burdens
on communities and the country as a whole, with about $879 million lost to malaria
annually in treatment and prevention costs, missed work, and the like. In Nigeria,
malaria is the cause of death for an estimated 300,000 children per year.1

USAID/Nigeria participates in the Roll Back Malaria Partnership, a global initiative of
                                               H                                       H




more than 90 partners whose goal is to reduce the burden of malaria by 50 percent by
2010. The initiative was part of the mission’s 2004–2009 strategic plan. USAID/Nigeria
also supported the national malaria program to increase access to and use of proven
prevention and treatment interventions by focusing on three specific activities:

	 Artemisinin-based combination therapies (ACTs) 2                  F   F




 Insecticide-treated nets to prevent malaria
 Intermittent preventive treatment (IPT) of pregnant women with sulfadoxine-
   pyrimethanine 3       F




USAID/Nigeria’s fiscal year (FY) 2009 budget for malaria totaled $14.8 million, of which
43 percent was to purchase antimalarial drugs, 43 percent was to purchase and
distribute insecticide-treated nets, and the remainder was to fund activities including
training health workers in prevention and treatment techniques. To implement its
malaria activities, USAID/Nigeria entered into agreements with four main partners, as
noted in table 1.

              Table 1. Partners to Implementation Agreements With USAID
                      Partner                   Budget        Agreement Dates
     Society for Family Health                    $918,000   Nov. 2004 – Nov. 2011
     Academy for Educational Development         15,422,000* Sept. 1999 – Sept. 2009
     Pathfinder International                    95,000,000   May 2004 – Aug. 2009
     John Snow, Inc./DELIVER                    894,000,000  April 2007 – April 2012
     Total                                 $1,005,340,000
    *This is the total amount of the global indefinite quantity contract signed in Washington D.C. USAID/Nigeria’s
    buy-in to the contract totaled $7,805,000 in FY 2009.

The Regional Inspector General/Dakar conducted this audit at USAID/Nigeria to answer
the following question:

	 Did USAID/Nigeria’s malaria activities achieve their main goal of increasing access to
   and use of proven prevention and treatment interventions?


1
  The source of the information in this paragraph is the 2008 Nigeria Demographic and Health Survey.

2
  A drug used to treat malaria (referred to as an antimalarial drug in this report). 

3
  A drug given to pregnant women for malaria treatment and prevention.



                                                       1

As for reducing the burden of malaria by 50 percent, mission officials and the Nigerian
Ministry of Health have asserted slow progress in reaching this goal because of limited
funding and relatively low levels of activity by other donors. Nonetheless, according to
the 2003 and 2008 Nigeria Demographic and Health Surveys, there has been a notable
increase in the proportion of children under 5 (12 percent in 2008, compared with
6 percent in 2003) and pregnant women (5 percent in 2008, compared with 1 percent in
2003) sleeping under treated bed nets. The surveys also reported that under-5 mortality
decreased from 199 deaths per 1,000 births during 1993 to 1998 to 157 deaths per
1,000 births in 2003 to 2008. In addition, the 2008 Demographic and Health Survey
indicated that 16 percent of children under 5 had fever4 during the 2 weeks preceding the
interview, compared with 32 percent of children interviewed in 2003.

As for providing assistance to the national malaria program, USAID/Nigeria has made
progress by increasing access to insecticide-treated nets, providing malaria treatment
and prevention training to more than 2,500 people, and raising awareness of malaria
among about 23 million people. However, the mission has not achieved its main goals,
and significant problems with data quality and reporting of the number of bed nets
distributed raised questions concerning the reliability of reported results.

ACTs – For FY 2008 and FY 2009, the mission intended to purchase and distribute
600,000 prepackaged ACTs each year. However, the mission suspended procurement
of the ACTs for 2 years when it learned of problems with the drug supplier.
USAID/Nigeria resumed procurement and received about 800,000 doses of ACTs from
October to December 2009. However, as of April 7, 2010 (6 months later), 437,250
doses remained at Society for Family Health’s main warehouse in Lagos, inaccessible to
beneficiaries.

Insecticide-Treated Nets – The mission reported that it achieved its goal by procuring
705,349 bed nets and supporting the distribution and sale of some 6.8 million bed nets.
However, the audit disclosed several discrepancies between the numbers reported by
the mission and the support maintained at the partners’ offices and at the distribution
sites selected for audit. In addition, about 177,954 bed nets (worth $710,218) were
stolen or unaccounted for. Furthermore, the mission may have claimed too much credit
for the 6.8 million bed nets distributed or sold.

IPTs – The mission did not include provision of IPT as an indicator in its performance
management plan and was not tracking progress for this main goal.

To address these problems and improve program management, the audit recommends
that USAID/Nigeria:

   Make a final determination on the estimated $710,218 in unsupported questioned
    costs for the 177,954 bed nets that were stolen or unaccounted for, and recover from
    the recipients any amounts determined to be unallowable.




4
  Because fever is the main symptom of malaria, the proportion of children with fever in the population is a
proxy for the prevalence of malaria. Any reduction in the malaria disease burden should lead to a reduction
in the overall prevalence of fever.


                                                     2

	 Develop and implement a plan of action and written procedures requiring that bed
   nets procured and distributed with U.S. Government funds be tracked, accounted for,
   and documented for program management verification.

	 Require that the implementing partner distribute the remaining 437,250 doses of
   artemisinin-based combination treatments stored at its warehouse in Lagos.

	 Develop procedures to validate (including cross-checking) and evaluate the
   completeness, accuracy, and consistency of its reported data for the number of
   insecticide-treated nets distributed or sold with U.S. Government funds and the
   number of people trained with U.S. Government funds in malaria treatment or
   prevention.

	 Include the goal of increasing access to and use of IPT of pregnant women as an
   indicator in its performance management plan and track its progress toward meeting
   its objective.

	 Explain its involvement in achieving the result it reported in its annual performance
   report for the number of bed nets distributed or sold with U.S. Government funds.

Detailed findings appear in the following section. The audit’s scope and methodology are
described in appendix I.

USAID/Nigeria’s agreed with all recommendations. Based on actions taken by the
mission and supporting documentation provided, final action has been taken on
recommendation 1, and management decisions have been reached on
recommendations 2, 3, 4, 5, and 6. USAID/Ghana’s comments are included in their
entirety in appendix II.




                                           3

AUDIT FINDINGS

Bed Nets Were Stolen or
Unaccounted For
The Government Accountability Office (GAO) Standards for Internal Control in the
Federal Government 5 states that an agency must establish physical control to secure
                           F   F




and safeguard vulnerable assets, and also states that transactions should be recorded
promptly to maintain their relevance and value to management in controlling operations
and making decisions. However, at 8 of the 20 local government areas (LGAs) where
bed nets were distributed, the audit verified the number of nets received and distributed
by the LGAs and found that 164,460 bed nets were unaccounted for. LGA officials
confirmed that an additional 13,494 bed nets had been stolen, as itemized in table 2.

                               Table 2. Bed Nets Stolen or Unaccounted For

         Local Government Area               Bed Nets        Bed Nets         Bed Nets    Bed Nets
                                             Received       Distributed        Stolen    Unaccounted
                                                                                             For
    Gwale                                     159,650          115,000             350      44,300
    Kano Municipal                            161,150*         157,768             968       2,414
    Dala                                      184,650          183,800               0         850
    Nasawara                                  263,100          250,028          12,176         896
    Calabar South, Calabar Municipal,
    Bakassi, Akpabuyo                          116,000*                                    116,000
     Total                                     884,550         706,596         13,494     164,460
* These bed nets were purchased and distributed with U.S. Government funds.

Furthermore, there was speculation about the 116,000 bed nets received by the four
LGAs in Calabar State (Calabar South, Calabar Municipal, Bakassi, and Akpabuyo)
because no one at the LGAs was able to provide information on whether the nets had
been distributed. This lack of information is unusual and raises concern, especially
because the nets were delivered to the communities after the free distribution campaign
had ended. According to USAID officials, USAID was not able to deliver the bed nets to
the four LGAs until several weeks after the free bed net distribution campaign had ended
because the nets were received behind schedule from the supplier. USAID officials
and/or partner staff supervised the bed net distribution during the campaigns, but
because the nets were received after the campaign, no one supervised the distribution
process. The officials from the LGAs could not provide any documentation to support
distribution of the bed nets, raising suspicion as to their whereabouts.

This lack of documentation occurred because of weak internal controls over the
distribution process. As a result of these weaknesses in controls, an estimated
$710,218 6 in bed nets may have been diverted.
             F   F




5
 GAO/AIMD-00-21.3.1 (11/99), pages 14-15.
6
  For LGAs where bed nets were purchased and distributed with U.S. Government funds, the estimated
value of each net was $5.19 and the distribution cost per unit was $0.52. For the LGAs where other donors
purchased the nets but U.S. Government funds covered distribution, the audit team used only the
distribution cost in the calculation.


                                                       4

To address, these concerns, this audit makes the following recommendations:

      Recommendation 1:        We recommend that USAID/Nigeria make a final
      determination on the estimated $710,218 in unsupported questioned costs for the
      177,954 bed nets that were stolen or unaccounted for, and recover from the
      recipients any amounts determined to be unallowable.

      Recommendation 2:         We recommend for future net distributions that
      USAID/Nigeria develop and implement a plan of action and written procedures
      requiring that bed nets procured and distributed with U.S. Government funds be
      tracked, accounted for, and documented for program management verification.

All ACTs Need
to Be Distributed
USAID/Nigeria’s goal was to provide the Nigerian national malaria program with 600,000
doses of artesunate-amodiaquine 7 each year for fiscal years (FYs) 2008 and 2009 to
                                          F   F




treat malaria patients. However, the mission delayed the procurement for 2 years
because of a public notice issued on the drugs. Finally in FY 2010, the mission made
up for the past 2 years and resumed the procurement of about 1.2 million doses of
artemisinin-based combination therapies (ACTs). From October to December 2009, the
mission received a total of 800,000 doses of ACTs. However, as of April 7, 2010 (6
months later), 437,250 doses remained in storage in the main warehouse in Lagos.




Undistributed drugs wait at the Society for Family Health’s main warehouse in Lagos.
(Picture taken by USAID auditor on February 3, 2010)

According to the implementing partner, the ACTs were to be repackaged in small boxes
to enhance marketability. Unfortunately, repackaging has taken longer than expected,
delaying distribution of the ACTs.



7
    Artesunate-amodiaquine is one type of artemisinin-based combination therapy.


                                                      5

According to the Nigerian Ministry of Health, the delay in acquiring the ACTs did not
have a significant negative effect on the national malaria program, as supplies from
other donors were uninterrupted. Although the mission took proper actions to delay the
procurement of drugs when questions arose regarding the supplier, the mission should
have taken prompt action to deliver the drugs and make them available to malaria
patients once the drugs were received. Therefore, this audit makes the following
recommendation:

      Recommendation 3: We recommend that USAID/Nigeria require that the
      implementing partner distribute the remaining 437,250 doses of artemisinin-
      based combination treatments stored at its warehouse in Lagos.

Reported Results
Were Not Supported
a)
According to Automated Directives System (ADS) 203.3.5.1, performance data should
meet data quality standards, including standards for reliability, precision (data should be
sufficiently precise to present a fair picture of performance) and validity (data should
clearly and adequately represent the intended result). Also, according to the GAO
Standards for Internal Control in the Federal Government, transactions and significant
events should be clearly documented and the documentation should be readily available
for examination 8  F




To verify the reliability of the results reported by USAID/Nigeria for the indicator—the
number of insecticide-treated bed nets distributed or sold with U.S. Government funds—
the audit team compared the mission’s reported data with the partners’ summary reports
and the partners’ summary reports with source documents at the LGAs where activities
were implemented. The audit reviewed 59 percent of the total results for 6,791,819
insecticide-treated nets that the mission reported were distributed or sold. Tests
revealed that the mission’s reported data were not supported by the partners’ summary
reports and that selected partners’ reported data were not supported at the LGAs.

Discrepancies Between the Mission’s and the Partners’ Reported Data

	 The mission reported 5,119,846 bed nets distributed or sold with U.S. Government
   funds by Academy for Educational Development (AED), but AED reported 5,823,936
   in its quarterly and final reports.

	 The mission reported 1,671,973 bed nets distributed with U.S. Government funds by
   Community Participation for Action in the Social Sector (COMPASS), but COMPASS
   reported 1,790,000 in its quarterly report and 1,671,973 in its final report. The audit
   team validated the data using the Monitoring and Evaluation Monitoring System and
   concluded that the correct number was 1,669,556.

	 The mission reported 991 people trained with U.S. Government funds in malaria
   treatment or prevention by AED, but AED reported 893 people in its quarterly and
   final reports.

8
    GAO/AIMD-00-21.3.1 (11/99), page 15.




                                            6

	 The mission reported 2,514 people trained with U.S. Government funds in malaria
   treatment or prevention, but the audit team could verify only 1,103.

Discrepancies Between Partners’ Results and Source Documents Maintained by
the LGAs – For the selected sites, the implementing partners reported 4,025,822 bed
nets distributed or sold with U.S. Government funds, but the audit team was able to
verify only 3,061,045, or 76 percent of the bed nets, as detailed in table 3.

                            Table 3. Results Reported and Verified

                Sites                   Type of       Partner-       Results    Difference
                                      Distribution    Reported       Verified
                                                       Results
   Dala                                   Free           184,648     183,800         848
   Gwale                                  Free           159,639     115,000      44,639
   Kano Municipal                         Free           161,168     157,768       3,400
   Kano Nasawara                          Free           256,865     250,028       6,837
   Syngentha                              Sale         2,051,953   1,076,449     975,504
   Harvest Field                          Sale         1,096,200   1,278,000    (181,800)
   Calabar, (Calabar South, Calabar       Free           116,000           0     116,000
   Municipal, Bakassi, Akpabuyo)
      Total                                           4,026,473    3,061,045    965,428

Discrepancies occurred because of poor record keeping and lack of independent
verification from the mission of the reported results. Another reason raised by AED staff in
Nigeria is that the project closed in September 2009, and all project files were sent to the
headquarters office in Washington, DC. With inadequate records and an inconsistent and
undocumented reporting system, internal controls for results reporting could not ensure
that reported results were valid, supported, and accurately summarized before being
reported to the mission. Consequently, USAID/Nigeria did not have reasonable assurance
that the data met acceptable standards of validity, reliability, and timeliness.

As a result of these significant variances, the audit could not obtain reasonable
assurance that the results reported for the indicators—number of insecticide-treated nets
distributed or sold with U.S. Government funds, and number of people trained with U.S.
Government funds in malaria treatment or prevention—were valid and reliable and met
required data quality standards. Without reliable data, managers cannot make sound
performance-based decisions. Therefore, this audit makes the following
recommendation to strengthen the mission’s and its partners’ results reporting system
for the malaria program.

   Recommendation 4: We recommend that USAID/Nigeria, in coordination with its
   implementing partners, develop procedures to validate (including cross-checking)
   and evaluate the completeness, accuracy, and consistency of its reported data
   for the number of insecticide-treated nets distributed or sold with U.S.
   Government funds and the number of people trained with U.S. Government
   funds in malaria treatment or prevention.




                                                 7

Performance Management
Needs to Be Strengthened

According to ADS 203.3.2, performance management is in part the systematic process
of monitoring the achievements of program operations and collecting and analyzing
performance information to track progress toward planned results. Also, ADS 203.3.8.3
states that standard indicators are used in planning and reporting through the joint
operational plan and the joint performance report. Standard indicators facilitate the
aggregation of results across operating units worldwide and improve the U.S.
Government’s ability to report how U.S. foreign assistance resources are being used.

Also, ADS 203.3.4.2 states that performance indicators selected for inclusion in the
performance management plan should measure changes that are clearly and
reasonably attributable to efforts by USAID (or the U.S. Government, as appropriate). In
the context of performance indicators and reporting, attribution exists when the outputs
of USAID-financed activities have a logical and causal effect on the result(s) being
measured by a given performance indicator. If more than one agency or government is
involved in achieving a result, USAID should describe exactly what role each played in
achieving the result. Custom indicators must be plausibly attributable to U.S. foreign
assistance. Furthermore, the mission should avoid the appearance of claiming results
achieved jointly with the host country or other development partners as solely USAID or
U.S. Government results.

The audit found that the mission was not tracking progress on one of its main goals and
may have claimed too much credit for one indicator.

Mission Did Not Track Progress on a Main Goal – The mission was not tracking the
progress for one of its main goals: “increase access to and use of intermittent
preventive treatment (IPT) of pregnant women with sulfadoxine-pyrimethanine.”
Although this was a main goal, it was not included as an indicator in the mission’s
performance management plan.

According to the mission, access to and use of IPTs was one of the three areas of
intervention under the global Roll Back Malaria initiative. As such, the mission had
included it in its malaria activities, but was not requested or expected to report on it and
therefore did not. Instead, because of limited resources, the mission put more
importance on promoting and distributing bed nets.

Performance indicators are used to observe progress and to measure actual results
compared with expected results. Without performance indicators, the mission is not able
to determine how or whether the mission is progressing toward its objective.

Reported Results May Not Be Attributable to USAID – The mission may be taking too
much credit for the number of bed nets distributed or sold with U.S. Government funds.
In FY 2009, the mission reported achievement of 6,791,819 bed nets distributed or sold
with U.S. Government funds. Of the reported 6.8 million bed nets distributed or sold:

   	 590,000 were appropriately attributed to USAID/Nigeria because USAID
      procured the bed nets and distributed them during the free distribution campaign.



                                             8

   	 1,081,973 may not have been appropriately attributed to USAID/Nigeria. The
      World Bank procured the bed nets, whereas USAID/Nigeria provided funding
      only for their distribution.

   	 5,119,846 may not have been appropriately attributed to USAID/Nigeria. These
      bed nets were sold by private companies. USAID/Nigeria, in partnership with
      Netmark, provided support to the private companies for the sale and distribution
      of the bed nets. The support provided included marketing and technical support,
      as well as other activities. Although support provided in some cases may have
      been significant, it varied. For example, Netmark may have been very heavily
      involved in the activities of one company and provided complete technical and
      marketing assistance, whereas for another company support may have been
      limited to marketing.

Consequently, USAID may be misleading the public by claiming that more than 6 million
bed nets were sold and distributed solely by USAID or the U.S. Government.

USAID/Nigeria acknowledged that not all results can be attributed to USAID efforts and
stated that additional guidance was needed from Washington to determine what could
be attributed to USAID. Notwithstanding, the mission needs to explain more fully its
activities and involvement in achieving its reported results.

   Recommendation 5: We recommend that USAID/Nigeria include the goal of
   increasing access to and use of intermittent preventive treatment of pregnant
   women as an indicator in its performance management plan and track its
   progress toward meeting its objective.

   Recommendation 6: We recommend that USAID/Nigeria explain its involvement
   in achieving the result it reported in its annual performance report for the number
   of bed nets distributed or sold with U.S. Government funds.




                                           9

EVALUATION OF
MANAGEMENT COMMENTS
USAID/Nigeria agreed with all the recommendations in the draft report. In preparing the
final report, the Regional Inspector General/Dakar carefully considered the mission’s
comments and included the comments in their entirety in appendix II. An evaluation of
the mission’s comments follows:

For recommendation 1, USAID/Nigeria agreed that 13,494 bed nets had been stolen, but
claimed that only 65,860 bed nets were unaccounted for compared with the audited
figure of 164,460. The mission states that final determination for the questioned costs
has been made since the stolen amount represents only 2 percent and the amount
unaccounted represents only 7.5 percent of total nets provided by the U.S. Government.
The mission does not wish to pursue recovery of the funds since active measures have
been taken by the project against theft and the mission believes that the most likely
explanation for the unaccounted bed nets is the failure to maintain proper records rather
than diversion of the bed nets.       This action constitutes final action for this
recommendation.

For recommendation 2, USAID/Nigeria agreed with the recommendation and will have
the implementing partner submit a written plan of action for how nets will be tracked,
accounted for, and documented for program management verification. The mission
plans to implement this for the first distribution of bed nets purchased with U.S.
Government funds by the second half of 2010 (September 30, 2010). Accordingly, a
management decision has been reached for this recommendation.

For recommendation 3, USAID/Nigeria agreed with the recommendation and plans to
distribute the remaining doses by the end of August 2010. Accordingly, a management
decision has been reached for this recommendation.

For recommendation 4, USAID/Nigeria agreed with the recommendation and will take
action with the next implementing partner to include procedures to validate the
completeness, accuracy, and consistency of reported data by December 31, 2010.
Accordingly, a management decision has been reached for this recommendation.

For recommendation 5, USAID/Nigeria agreed with the recommendation and will include
the goal of increasing access to and use of intermittent preventive treatment of pregnant
women as an indicator by the second half of 2010 (September 30, 2010). Accordingly, a
management decision has been reached for this recommendation.

For recommendation 6, USAID/Nigeria agreed that the actual level of involvement can
vary greatly and needs to be explained in the annual performance report which is
planned for the second half of 2010 (September 30, 2010). Accordingly, a management
decision has been reached for this recommendation.




                                           10 

                                                                                 Appendix I



SCOPE AND METHODOLOGY

Scope
The Office of the Regional Inspector General/Dakar (RIG/Dakar) conducted this audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions, based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The audit was designed to
determine whether USAID/Nigeria’s malaria interventions achieved their main goals.

The audit focused on USAID/Nigeria’s malaria activities from October 1, 2008, to
September 30, 2009. In planning and performing the audit, RIG/Dakar reviewed and
assessed the effectiveness of management controls over access to and use of
artemisinin-based combination therapies (ACTs), intermittent preventive treatment of
pregnant women with sulfadoxine-pyrimethanine drugs, and insecticide-treated bed nets
to prevent malaria.

The management controls we assessed included the country malaria operational plans
and monitoring activities and bed net procurement and distribution management
controls. During the audit, we requested and reviewed (1) the mission’s documentation
related to managing and monitoring of the program, (2) the implementing partners’
reports, (3) the mission’s site visit reports, and (4) the mission’s annual self-assessment
of internal control in accordance with provisions of the Federal Managers’ Financial
Integrity Act of 1982. 9   F




Fieldwork for this audit was conducted from January 19 to February 4, 2010,               at
USAID/Nigeria and implementing partner offices in Abuja and included site visits          in
Lagos, Kano, and Calabar. During the period covered by the audit (October 2008            to
September 2009), USAID/Nigeria obligated $11 million and disbursed $9.6 million           to
support malaria activities in Nigeria.

Methodology
To answer the audit objective, we interviewed officials from USAID/Nigeria, AED,
Society for Family Health, John Snow, Inc./DELIVER, and Pathfinder International, as
well as officials from the Nigerian’ Ministry of Health. We visited malaria state offices and
local government area (LGA) offices responsible for the distribution of bed nets (eight
sites that received free bed nets in the LGAs of Dala, Gwale, Nasarawa, Kano Municipal,
Calabar Municipal, Calabar South, Bakassi, and Akpabuyo), and the offices of two local
and private vendors/distributors of bed nets. We also visited two local warehouses
where ACTs were stored. Because a judgmental sample was selected, the results of the
sample cannot be projected to the universe of all activities.

To verify reported results of the free bed net distribution, we traced partners’ reported
results to the waybills and distribution lists maintained at the LGAs. For the sales of bed

9
    Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, and 3512.


                                                   11 

                                                                                         Appendix I


nets, we compared implementers’ reported results with the distributors’ summary
reports, and we traced those results to the distributors’ invoices. We observed
warehouse conditions for the storage of ACTs and compared inventory records with
warehouse stock cards and waybills. Finally, we traced the mission’s reported results to
the implementers’ progress reports and to supporting documentation at the sites.

For the three main indictors reported, our methods for verifying the reported results are
shown in table 4.

                         Table 4. Verification of the Reported Results

                           Indicator                                   Level of Verification
   Number of insecticide-treated nets purchased with U.S.        We selected 100 percent of the
   Government funds                                              reported results for review
   Number of people trained with U.S. Government funds in        We selected 100 percent of the
   malaria treatment or prevention                               reported results for review
   Number of insecticide-treated nets distributed or sold with   We selected 59 percent of the
   U.S. Government funds                                         reported results for review

To judge the significance of variances found during the audit between reported results
and supporting documentation, we considered a variance of 10 percent or more to be
significant and reportable.




                                                  12 

                                                                               Appendix II



MANAGEMENT COMMENTS 




To: 	          Van Nguyen, RIG office, Dakar, Senegal

From: 	        Sharon Epstein, USAID/HPN Office Nigeria

Through: 	     Ray Kirkland, Mission Director, USAID/Nigeria

Date: 	        June 24, 2010

Subject 	      Re: Response to recommendations from the Audit of USAID/Nigeria’s
               Malaria Interventions No. 7-620-10-00X-P (draft of May 7, 2010)

Recommendation No. 1: We recommend that USAID/Nigeria make a final determination
on the estimated $710,218 in unsupported questioned costs for the 177,954 bed nets that
were stolen or unaccounted for, and recover from the recipients any amounts determined
to be unallowable.

Response: USAID/Nigeria on review of the available evidence believes that the actual
number of bednets that were tracked to be stolen (13,494) represents less than 2% of the
USG provided nets given out in that campaign. The nets that are unaccounted for
(65,860) are 7.5% of USG provided nets in the two campaigns reviewed. Please see our
detailed analysis of this situation submitted separately. We believe that the most likely
explanation for the unaccounted nets is the failure to maintain proper records for USAID
projects that had closed as of the time of the audit rather than diversion of these nets.
Given the active measures taken by the project against theft and the low rate of stolen
nets we do not wish to pursue recovery of funds for stolen nets. Given our belief that the
unaccounted for nets more likely represent poor record keeping in closed projects rather
than diversions we do not wish to pursue recovery of funds for unaccounted nets.

Recommendation No. 2: We recommend for future net distributions that USAID/Nigeria
develop and implement a plan of action and written procedures requiring that bed nets
procured and distributed with US Government funds are tracked, accounted for and
documented for program management verification.

Response: We agree for nets purchased with USG funds. In these cases we will have the
implementing partner submit a written plan of action for how nets will be tracked,


                                            13 

                                                                                 Appendix II


accounted for and documented for program management verification. The first example
of this will be the distribution of USG purchased nets by the International Federation of
the Red Cross in Cross River State in the second half of 2010. Subsequent distributions
of USG purchased nets have not yet been planned, but will also include a plan of action
for tracking.

Recommendation No. 3. We recommend that USAID/Nigeria require that the
implementing partner distribute the remaining 437,250 doses of artemisinin-based
combination treatments stored at its warehouse in Lagos.

Response. We agree. As of May 31, 2010, some180,000 doses remained in the
warehouse. We expect the remaining doses will be distributed by the end of August 2010
and will ask the implementing partner to document this in its routine quarterly report.

Recommendation No. 4. We recommend that USAID/Nigeria, in coordination with its
implementing partners, develop procedures to validate (including cross checking) and
evaluate the completeness, accuracy and consistency of its reported data for the number
of insecticide-treated nets distributed or sold with US Government funds and the number
of people trained with US Government funds in malaria treatment or prevention.

Response: We agree. The procedures to validate the completeness, accuracy and
consistency of reported data are in fact in place. We agree that this further needs to be
strengthened for nets distributed with assistance from US Government funds. Further
steps will be taken to ask partners involved in such distribution to propose such
procedures. The next partner to take part in this activity is the International Federation of
the Red Cross in Cross River State in the second half of 2010. Since these are US
Government purchased nets these procedures are already covered under
Recommendation 2. No other specific net distribution support is planned at this time, but
we will ask the TSHIP project about distributions in its project states which it may
support and have them submit procedures for validation for review by USAID, which
will then be implemented. The procedures, may, in some cases, be limited since US
Government funds may support certain aspects of net sales or distribution without having
strong controls over the actual procedures used or records kept. But whatever method is
used to estimate and validate these figures will be well documented.
For persons trained in malaria, we agree that quarterly, annual and USAID figures
sometimes vary. In part this may be because USAID reports have been based on figures
entered by the partners into a web-based electronic database (under the former MEMS
project), usually after the quarterly and annual written reports are submitted and partners
sometimes submit updated numbers on this site. In terms of lack of validation of
numbers reported, we found on further inquiry that one partner was eventually able to
provide documentation showing that it trained approximately the number of people
reported. The second partner project had closed and was not able to retrieve the training
documentation from storage in the US. We expect that, if found, this would show the
number reported were, in fact, trained. USAID already has DQA procedures in place to
check the validity, completeness and quality of training data and other indicators. We




                                             14 

                                                                                Appendix II


will review these procedures to ensure that they validate malaria training reports in
upcoming years. These procedures will also be applied to net distribution indicators.

Recommendation No. 5. We recommend that USAID/Nigeria include the goal of
increasing access to and use of intermittent preventive treatment of pregnant women as
an indicator in its performance management plan and track its progress toward meeting
its objective

Response: We agree. This will be an indicator reported to the President’s Malaria
Initiative possibly with the report in the second half of 2010 or at latest when Nigeria
formally joins the PMI. This indicator is already in the PMP for the TSHIP project and
will be in the PMP for the upcoming MAPS project.

Recommendation No. 6. We recommend that USAID/Nigeria explain its involvement in
achieving the result it reported in its annual performance report for the number of bed
nets distributed or sold with US Government funds.

Response: We agree. The actual level of involvement when US Government funds are
used to support net distribution and sales can vary greatly and this needs to be explained
in the annual performance report so that a misleading impression is not given. This will
be done for the upcoming annual report in the second half of 2010.




                                            15 

                                              I




U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
